October 22, 2008

SUSAN BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

ANTHONY M. PAJUNAS
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUBJECT: Management Advisory Report – Management Controls at Contractor-
         Operated Mail Processing Facilities (Report Number MS-MA-09-001)

This report presents the results of our self-initiated review of Management Controls at
Contractor-Operated Mail Processing Facilities (Project Number 08RG016MS000). Our
objective was to evaluate management controls related to contractor-operated mail
processing facilities. See Appendix A for additional information about this audit.

Conclusion

The U.S. Postal Service can improve management controls by enhancing the contract
award process to address potential organizational conflicts of interest and improving
surface visibility controls over mail entering and exiting the facilities.

Enhance the Contract Award Process

The Postal Service awarded contracts to vendors without considering potential conflicts
of interest. Two major mail presorters/consolidators (Pitney Bowes and United Parcel
Service [UPS]) were awarded contracts to process mail for the Postal Service.
Moreover, UPS also has a contract to provide air transportation. Awarding mail
processing contracts to mail consolidators creates opportunities for the consolidators to
introduce mail into the mailstream without the Postal Service verifying postage.

An organizational conflict of interest exists when the nature of the work to be performed
under a contract may give an offeror an unfair competitive advantage, or when an
offeror has other interests that may impair its objectivity or ability to perform
satisfactorily.1

Contractors’ involvement in other mail-related activities, such as presorting and
consolidating, was not considered because the Postal Service does not require
disclosure of these activities during the solicitation. The Postal Service did not include
1
 Purchasing Manual, Issue 3, December 25, 2003 (updated with Postal Bulletin revisions through October 1, 2004),
Section 1.6.8a, Supplying Principles and Practices (SP&P) (revised July 30, 2007).
Management Controls at Contractor-Operated                                                                 MS-MA-09-001
 Mail Processing Facilities


the “Organizational Conflict of Interest” clause in the surface transfer center (STC) or
the terminal handling services (THS) solicitations; rather, these solicitations only
required disclosure of parent companies and business affiliations.2 Accordingly,
contracting officials did not have sufficient information to adequately assess potential
conflicts of interest.

Also, Postal Service purchasing guidelines have become less stringent in recent years.
The Postal Service’s Purchasing Manual, which had the force and effect of law, required
contracting officers to attempt to identify potential conflicts of interest so they may avoid
or mitigate them; however, management replaced the Purchasing Manual with Interim
Purchasing Guidelines on May 19, 2005. Then on May 1, 2006, the agency replaced
these guidelines with the SP&P. The SP&P, which do not have the force and effect of
law, state that the Postal Service will seek to minimize both personal and organizational
conflicts of interest and that a purchase plan “should” include possible conflicts of
interest. However, the SP&P do not require contracting officers to include the conflict of
interest clause in solicitations.

An organizational conflict of interest can cause the public to question the integrity of the
Postal Service’s contracting process, give an offeror an unfair competitive advantage, or
impair its objectivity or ability to perform satisfactorily. Further, the Postal Service may
be at higher risk of losing revenue if mail is entered at contractor-operated facilities
without proper verification and acceptance.

We recommend the Vice President, Supply Management:

1. Revise the “Representations and Certifications” section of Requests for Proposals,
   or include language in the solicitation, to require bidders to disclose any mail-related
   activities, such as consolidation or presorting operations performed by the offeror,
   parent companies, and business affiliations, which could lead to a conflict of interest
   or which appear to constitute a conflict of interest.

2. Incorporate Supplying Principles and Practices Clause 1-7, Organizational Conflicts
   of Interest, in all requests for proposals and contracts for outsourcing mail
   processing facilities.

3. Develop a conflict of interest mitigation plan for the current affected contracts, and
   develop a risk mitigation strategy regarding potential conflicts of interest for future
   mail processing contracts.




2
  This clause requires the contractor to represent that, to the best of its knowledge, it has no organizational conflicts
of interest. In addition, any contractor discovering a conflict of interest after being awarded a contract must disclose
the conflict to the contracting officer in writing, along with any corrective action the contractor has taken or proposes
to take.



                                                            2
Management Controls at Contractor-Operated                                                                    MS-MA-09-001
 Mail Processing Facilities


Improve Surface Visibility Controls

Procedures are not in place to confirm that employees have verified and accepted mail
arriving at Surface Transfer Centers (STCs) and THS sites and that the customer paid
the applicable postage. Specifically, mail barcode scans captured at contractor-
operated facilities are not compared to barcode scans captured at mail entry points.3
Enhancing visibility using scanned barcode data would enable the Postal Service to
monitor mail and protect revenue by validating that its employees properly verified and
accepted all mail tendered to the contractor.

         Surface Transfer Centers

         Although the capability exists under Surface Visibility4 to scan individual mail
         handling units,5 the agency has not fully implemented it. Therefore, not all mail
         handling units arriving at the STCs have the 24-Digit Enhanced Distribution Label
         (EDL)6 barcode needed to capture detailed data. Accordingly, the STCs are not
         required to scan individual handling units. Rather, the contractor scans incoming
         containers to provide data for billing purposes only. Consequently, insufficient
         scan data is available to uniquely identify each handling unit and enable
         reconciliation of barcode scans captured at mail entry points to barcode scans
         captured at STCs.

         The 24-digit EDL label format expands the existing 10-digit tray/sack label by
         adding data elements that will uniquely identify each handling unit and its origin
         and continue to support sortation and routing. The Postal Service can use this
         information to validate the receipt of trayed and sacked mail.

         The Postal Service currently has ongoing initiatives to enhance visibility over mail
         through the Intelligent Mail and Surface Visibility programs. On August 21, 2008,
         the Postal Service promulgated a final rule governing Intelligent Mail barcodes.
         The 24-digit barcoded label will be available on, but not before, April 6, 2009.
         Once this barcode is in use, it will be possible to compare unique handling unit
         scans from mail entry points to scans taken at STCs.




3
  Locations where mail is entered into the mailstream, such as business mail entry units, detached mail units, and
post offices.
4
  The goal of Surface Visibility is to collect data at the handling unit (sack, tray, or tub) level in order to track volume
throughout the surface transportation network.
5
  Mail handling units include sacks, trays and tubs.
6
  The 24-digit EDL barcode includes additional fields to identify the mailer and uniquely number each tray or sack,
and will be required for the Intelligent Mail full-service option.



                                                              3
Management Controls at Contractor-Operated                                                              MS-MA-09-001
 Mail Processing Facilities


         Terminal Handling Services

         THS contractors are responsible for scanning the Dispatch and Routing (D&R)
         Tags7 for each handling unit loaded into containers tendered to airlines at
         origination. Additionally, THS contractors are required to scan D&R Tags for
         each handling unit unloaded from the containers at destination. This scan data is
         used as a basis to compensate THS contractors. However, the originating and
         destinating scan data are not reconciled or used to monitor or account for mail
         entrusted to these contractors.

Prior to outsourcing mail processing activities, the Postal Service controlled the mail
flow from the point of acceptance to delivery. The Postal Service is delegating control
of these facilities to contractors without establishing controls to ensure all mail arriving
at the facility has been verified and accepted, and the applicable postage has been
paid.

Outsourcing mail processing activities to contractors without adequate visibility could
increase the risk of revenue loss through transporting mail without proper verification
and acceptance.

We recommend the Vice President, Network Operations Management:

4. Establish procedures to ensure the Postal Service reconciles mail scans captured
   by Surface Transfer Center and Terminal Handling Services contractors with scans
   at the points of acceptance.

Management’s Comments

Management agreed with the intent of recommendation 1 but will not revise the
“Representations and Certifications” section of Requests for Proposals. Instead,
management will develop, in conjunction with the General Counsel, a tailored version of
Clause 1-7, Organizational Conflicts of Interest, requiring suppliers to disclose and
certify mail-related activities and include this clause in future solicitations. Management
agreed with recommendations 2 and 3. To address recommendation 2, management
will include the tailored Clause 1-7 in future solicitations for outsourcing of mail
processing contracts. To address recommendation 3, management will work with
Network Operations to assess the risks for potential conflicts of interest regarding
current contracts and consider risk management plans for future mail-related
outsourcing activities where the potential for conflicts of interest exist.

Finally, management disagreed with recommendation 4, stating that full adoption of the
Intelligent Mail barcode and implementation of Seamless Acceptance will provide a fully

7
  A barcoded Postal Service label that is attached to a mail handling unit. This tag provides an identification number
that is unique for 30 days from generation in human and machine-readable format. It also provides the destination
aviation supplier ramp identifier of the handling unit in human readable format.



                                                           4
Management Controls at Contractor-Operated                                    MS-MA-09-001
 Mail Processing Facilities


integrated process to capture and track mailpieces and handling units back to the point
of acceptance. See Appendix B for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to recommendations 1, 2, and 3 and their corrective actions
should resolve the issues identified in the report. However, management’s comments
are only partially responsive to recommendation 4 and will not fully resolve the issues
identified in the report. Adopting the Intelligent Mail barcode and the associated
infrastructure will provide the capability to track mailpieces and handling units back to
the point of acceptance. However, only the full service option for Intelligent Mail
provides some ability to confirm that mail was accepted and postage paid. The Postal
Service is not making the full service option for Intelligent Mail or Seamless Acceptance
mandatory; therefore, some mailers may not adopt this option. There is also a risk that
mail that has not been submitted for verification and acceptance can be delivered to a
processing facility. Therefore, reconciliation procedures are still needed to ensure mail
arriving at contractor-operated facilities has been properly verified and accepted and the
applicable postage paid.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed. We view the disagreement on recommendation 4 as
unresolved and plan to pursue it through the formal audit resolution process.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Robert Mitchell, Director, Sales
and Service, or me at (703) 248-2100.
 
      E-Signed by Tammy Whitcomb
    VERIFY authenticity with ApproveIt



                                          
 
Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Harold G. Walker
    William P. Galligan
    Katherine S. Banks



                                             5
Management Controls at Contractor-Operated                                                            MS-MA-09-001
 Mail Processing Facilities


                                APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service outsources some of its mail processing facilities to improve
operational efficiency and reduce costs. Recent and planned initiatives to outsource
mail processing and transportation functions place added significance on the need to
avoid, neutralize, or mitigate potential conflicts of interest before it awards contracts.

Surface Visibility provides the real-time decision support capabilities necessary to better
manage dock operations. In support of the Surface Visibility implementation strategy for
label production, the Postal Service is transitioning from the 10-digit barcode to the 24-
digit EDL barcode. The new barcode label provides the capability to uniquely identify
handling units in addition to identifying the origin of the handling unit. Real time data is
captured by handling unit, container, and trailer using mail processing equipment and
wireless handheld scanners. As each uniquely identified handling unit is nested8 into a
container, it is tracked through the plant and onto and off of trailers. The scanning
device notifies employees if they are placing a handling unit into an incorrect container
or if the container is loaded onto an incorrect trailer. When a trailer leaves its originating
plant, the destinating facility is notified of the expected arrival time and the contents of
the trailer.


                        Global Systems Management
                                                                                   Tracking Assets


      Outbound Facility Scanning
       Placard          Container      Container                      Container          Trailer
       Assign             Build          Close                          Load             Depart
                                                       Container
                                                         Stage
                                                       (Optional)




     Inbound Facility Scanning

         Trailer                             Trailer                            Ready to
         Arrive                              Unload                             Process
                                                                                           To Operations…




                                                                                                           3

    Source: U. S. Postal Service



8
 Nesting refers to associating handling units (sacks, trays, and tubs) with containers (rolling stock—general purpose
mail containers, universal mail containers, hampers, and pallets), and then containers with trailers.



                                                           6
Management Controls at Contractor-Operated                                                             MS-MA-09-001
 Mail Processing Facilities


Contractor-operated mail processing facilities include:

Surface Transfer Centers (STCs), formerly known as Hub and Spoke Programs
(HASPs)9, are mail consolidation and redistribution facilities intended to efficiently use
vehicles. STCs receive mail containerized by product type or by ZIP Code range and
sort mixed mail volume to the appropriate facility or transfer direct containers within a
specialized surface transportation network. Of 20 STCs, the following seven are
contractor-operated.


                   Contractor-Operated Surface Transfer Centers
       STC Name                   Contractor            Period of Contract          Contract Expense*
Atlanta, GA                      Pitney-Bowes             9/9/06 – 9/8/10              $6,959,044
Binghamton, NY                  DDL Associates            5/1/06 – 3/31/09             $1,882,712
Indianapolis, IN                      ABX               10/14/06 – 10/13/10            $5,897,161
Memphis, TN                           ABX                9/30/06 - 9/22/10             $3,792,143
Salt Lake City, UT                New Breed              6/10/06 – 9/30/08             $4,174,906
Southeast (Clinton, TN)          Pitney-Bowes           7/14/07 – 7/13/0810            $4,119,736
Southwest (Dallas, TX)                ABX                 9/9/06 – 9/8/10              $5,320,000

Contract expenditures identified above are actual totals for Fiscal Year 2007


Air Mail Centers (AMCs)11 are located at or adjacent to airports. Core operations
include assigning mail to flights; receiving and dispatching mail to/from air carriers;
accepting and sorting mail to/from plants; measuring performance; overseeing quality
control of air carrier operations; and managing functions specific to airport operations.
However, due to declining airmail volume, the Postal Service began standardizing
AMCs in 2007 by returning non-core AMC operations to processing and distribution
centers and bulk mail centers.

Bulk Mail Centers (BMCs) receive and process Periodicals, Standard Mail®, Package
Services, and, in some cases, Priority Mail® destinating within their own service area.
The BMC network consists of 21 facilities that serve as centralized processing and
transfer points for designated geographic areas. The BMC network also includes
Auxiliary Service Facilities (ASFs). These ASFs are usually part of a general mail
facility that has its own service area and serves as a satellite processing hub for a
particular BMC.



9
  Program for surface mail that includes a central point (“hub”) where mail for a group of offices (“spokes”) can be
unloaded from a series of incoming trips, massed according to their intended destination, and then sent on to that
destination on another trip.
10
   The Clinton STC is operating under a sole source justification to allow for solicitation of a new contract.
11
   Represents both AMCs and Air Mail Facilities (AMFs), which perform essentially the same functions. An AMC is
generally larger than an AMF.



                                                          7
Management Controls at Contractor-Operated                                      MS-MA-09-001
 Mail Processing Facilities


In July 2007, the Postal Service issued a Request for Information (RFI) seeking to
identify interested organizations with the capability of implementing a time-definite mail
distribution and transportation network. In July 2008, the Postal Service issued a draft
Request for Proposal (RFP) for a Time-Definite Surface Network, the next step in a
process following 2007’s RFI on the same subject. The draft RFP provides an
opportunity for industry to review and understand the Postal Service’s requirements and
to provide comments and feedback on the various sections of the solicitation, including
the statement of work and provisions and clauses. The Postal Service operates all
BMCs and ASFs.

The draft RFP emphasizes the importance of 100 percent visibility of mail processed by
potential contractors. Specifically, it states:

      . . .visibility data allows the Postal Service to track service, enable
      payment, protect revenue, and ensure that all mail tendered to the
      supplier is delivered back to the Postal Service.

The data will be captured through the tracking of unique barcodes on trailers, mail
transport equipment, placards, and mail handling units. When a unique barcode is not
available, the supplier will produce a barcode for trays, tubs, sacks, pallets, and rolling
stock. Each unit is tracked either through direct scanning, nesting/denesting scans, or
some other supplier-designed process/system.

Terminal Handling Services (THS) Suppliers are responsible for handing off mail
between the Postal Service and air carriers at 65 airports where mail is tendered,
received and prepared for dispatch. The primary carrier is FedEx. There are currently
nine THS contracted facilities.




                                              8
Management Controls at Contractor-Operated                                      MS-MA-09-001
 Mail Processing Facilities




                  Contractor-Operated Terminal Handling Services Sites
                                               Number of
                       Contractor               Airports   Estimated Contract Cost
                                                Serviced
            Cargo Force (CFI)                       3                   $46,218,927

            Global Logistic Service (GLS)           1                    $4,039,403

            Metro Air Service (MAS)                 5                   $43,617,283

            Evergreen-Eagle (EZT)                   10                 $131,009,527

            Worldwide Flight Services (WFS)         11                 $115,244,049

            Integrated Airline Service (IAS)        13                  $79,284,262

            Matheson Flight Services (MFE)          16                 $132,945,150

            Quantem Airline Service (QAS)           5                   $23,570,399

            United Parcel Service (UPS)             1                    $7,175,954


OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate management controls related to contractor-operated mail
processing facilities. To accomplish our objective, we:

      Reviewed criteria related to the Postal Service’s contracting process.

      Researched best practices pertaining to the bid solicitation/contract award
       process.

      Interviewed contracting officials to gain an understanding of existing bid
       solicitation/contract award procedures and related management controls.

      Reviewed contract files for outsourced mail processing facilities to identify
       potential conflicts of interest and whether key provisions conformed to Postal
       Service policy and best practices.

      Visited two contractor-operated facilities to observe controls for preventing mail
       from bypassing the mail acceptance process.

      Interviewed contractor and Postal Service staff at the selected facilities to obtain
       an understanding of controls in place for detecting mail entering the mailstream
       without being properly verified and accepted.



                                                9
Management Controls at Contractor-Operated                                 MS-MA-09-001
 Mail Processing Facilities



      Examined how the Postal Service’s Surface Visibility Program operates at
       contracted facilities.

We conducted this review from April through October 2008 in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We
relied on data obtained from Postal Service officials and data systems, including the
Contract Authoring and Management System, PostalOne!, and Transportation Contract
Support System. We did not test controls over the Postal Service data systems used.
We performed limited data integrity reviews, including source document examination,
observations, and discussions with officials to support our reliance on the data. We
discussed our observations and conclusions with management officials on
September 4, 2008, and included their comments where appropriate.




                                             10
Management Controls at Contractor-Operated                                             MS-MA-09-001
 Mail Processing Facilities


PRIOR AUDIT COVERAGE



                           Report             Final Report
   Report Title            Number                 Date                    Report Results
                                                                 The decision to outsource some
                                                                 operations was supported and should
                                                                 reduce costs with minimal impact on
                                                                 service performance; however,
  St. Louis Air Mail                                             management could have improved
                         EN-AR-08-002        February 29, 2008
 Center Outsourcing                                              planning for this new initiative.
                                                                 Opportunities exist to formalize
                                                                 lessons learned and best practices
                                                                 and enhance guidance for measuring
                                                                 results.
                                                                 The Government Accountability
                                                                 Office (GAO) reported that the Postal
                                                                 Service has no comprehensive
                                                                 mechanism for measuring results,
                                                                 including any actual savings;
                                                                 therefore, it could not provide
                                                                 information on the effectiveness of its
                                                                 outsourcing. Without cost-savings
                                                                 data, management, stakeholders,
                                                                 and Congress cannot assess the risk
                                                                 and value of outsourcing. Also,
                                                                 accountability for results is limited.
  Data Needed to
                                                                 GAO recommended that the
    Assess the
                          GAO-08-787           July 24, 2008     Postmaster General establish a
  Effectiveness of
                                                                 mechanism to measure the results
    Outsourcing
                                                                 (including any savings) of
                                                                 outsourcing initiatives that are subject
                                                                 to its collective bargaining
                                                                 agreements and better inform
                                                                 Congress by including these results
                                                                 in its annual operations report. The
                                                                 Postal Service generally agreed with
                                                                 GAO’s first recommendation, but did
                                                                 not commit to implementing GAO’s
                                                                 recommendation to provide Congress
                                                                 with information about the results of
                                                                 its outsourcing initiatives.




                                                11
Management Controls at Contractor-Operated                MS-MA-09-001
 Mail Processing Facilities


                      APPENDIX B: MANAGEMENT’S COMMENTS




                                             12
Management Controls at Contractor-Operated        MS-MA-09-001
 Mail Processing Facilities




                                             13
Management Controls at Contractor-Operated        MS-MA-09-001
 Mail Processing Facilities




                                             14
